CAPITAL CASE
No. ___

IN THE
SUPREME COURT OF THE UNITED STATES

OSCAR SMITH,
Petitioner,
vs.
STATE OF TENNESSEE,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Oscar Smith, by counsel, pursuant to Supreme Court Rule 39, hereby
requests leave of this Court to proceed in forma papueris in connection with the
attached Petition for Writ of Certiorari. Mr. Smith is a Tennessee death row
inmate. He is indigent and without income or assets. He was represented by
appointed counsel and was permitted to proceed in forma pauperis in the Court
below. A copy of the appointment order is Attached. Attachment A. Counsel were
appointed pursuant 18 U.S.C. § 3599 and authorized by that same court to
represent Mr. Smith in these proceedings.
1

Respectfully submitted,
AMY D. HARWELL
Assistant Chief, Capital Habeas Unit
*Counsel of Record
KATHERINE M. DIX
Assistant Federal Defender
ASHLEY WEST THOMPSON
Research & Writing Attorney
FEDERAL PUBLIC DEFENDER
Middle District of Tennessee
Capital Habeas Unit
810 Broadway, Suite 200
Nashville, TN 37203
(615) 736-5047
Amy_Harwell@fd.org
Counsel for Petitioner

BY:
Counsel for Oscar Smith

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify a copy of the document
was sent via Federal Express to the U.S. Supreme Court and via U.S. Mail to
Samantha Simpson, counsel for the Respondent, Office of the Attorney
General, 425 Fifth Avenue North, Nashville, Tennessee, 37243 on May 3, 2021.

Amy D. Harwell

2

RECEIVED:
IN THE UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Federal
OSCAR SMITH,
Petitioner-Applicant,
V.

RICKY BELL, Warden, Riverbend
Maximum Security Institution,
Respondent.

)
)
)
)
)
)
)
)
)
)

f UG 101999
.i.

_

Pub~ic Defender's Office
Nashv1\\e, Tennessee

No.

8 88- 073J.

JUDGE TRAUGER

ORDER
On July 23,1999, petitioner Oscar Smith filed a Motion to Proceed in Forma Pauperis
and a document titled, "Pro Se Initial Unamended Petition for Writ of Habeas Corpus and
Motion for Appointment of Counsel/ and Motion for Time for Counsel, Following Appointment,
to Investigate and Present All Available Claims for Relief In Petition for Writ of Habeas
Corpus." This matter was assigned to the undersigned on August 4, 1999.
The petitioner is a prisoner at Riverbend Maximum Security Institution, having been
sentenced to death for first degree murder in the Criminal Court of Davidson County, Tennessee.
His conviction and sentence were affirmed by the Tennessee Supreme Court on November 18,
1993 (State v. Smith, 868 S.W.2d 561 (Tenn. 1993)). His Petition for Writ of Certiorari to the
United States Supreme Court was denied on June 21, 1999. (Smith v. Tennessee, 119 S.Ct. 2375
(1999)). His papers do not contain his scheduled execution date and do not request a stay of
execution.
Motion to Proceed in Forma Pauperis
The petitioner has filed the affidavit required by 28 U.S.C.§ 1915(a) but not the certified
copy of his trust fund account statement required by subsection (2). It appears from the Motion

and Affidavit that the petitioner is indigent and is entitled to pauper's status. However, the
Motion to Proceed in Forma Pauperis is GRANTED, conditioned upon the filing of the required
trust fund account statement. Upon that filing, the Court will require payment of the filing fee as
mandated in 28 U.S.C. §1915(b).
Motion for Appointment of Counsel
Federal law mandates the appointment of counsel for capital habeas corpus petitioners
who are financially unable to obtain adequate representation. 21 U.S.C. §848(q)(4). This has
been interpreted by the Supreme Court to mean that these petitioners have the right to appointed
counsel to assist in the preparation of a proper habeas corpus petition. McFarland v. Scott, 512
U.S. 849, 856-857, 114 S.Ct. 2568, 129 L.Ed.2d 666 (1994). The Court finds that petitioner is
financially unable to obtain adequate representation to investigate and prosecute his habeas
corpus petition and hereby GRANTS his motion for the appointment of counsel. The Federal
Public Defender for the Middle District of Tennessee is hereby appointed to represent this
petitioner.
Application of the Antiterrorism and Effective Death Penalty Act of 1996
The Antiterrorism and Effective Death Penalty Act of 1996, 28 U.S.C.§2261-66, only
applies in capital habeas corpus proceedings if the state which has imposed the death penalty has
put in place a mechanism for the appointment, compensation, and reimbursement of counsel for
post-conviction proceedings brought by indigent prisoners with capital sentences that satisfies 28
U.S.C.§226l(b) and (c). This Court shall presume that the State of Tennessee has not satisfied
these provisions and that, therefore, this Act does not apply to this case unless, within ten (10)
days of the entry of this Order, the Tennessee State Attorney General's office files a motion

requesting the application of the Act, with documentation showing its satisfaction of the
necessary conditions.
Filing of Petition
Within thirty (30) days of the entry of this Order, the Federal Public Defender or his
designee shall file a formal, legally sufficient habeas corpus petition that is in conformance with
Rule 2 of the Rules Governing Section 2254 Cases in the United States District Courts ("Rules").
If the petition does not require summary dismissal, the Court shall order the filing of an answer
and enter a scheduling order. See Rule 4 of Rules.
Service
The clerk is hereby ORDERED to serve a copy of this Order and the petitioner's filings
upon the Tennessee Attorney General and the Federal Public Defender for the Middle District of
Tennessee immediately upon entry by facsimile and also by regular mail service.
It is so ORDERED.

Enter this

s:K

day of August, 1999.

United States District Judg

Case: 3:99-cv-00731
Henry Alan Martin, Esq.
Federal Public Defender's Office
810 Broadway
Suite 200
Nashville, TN 37203

RECE\VEQJ
r~uG 1 u1999
Federal Public Defender's Office
Nashville, Tennessee

